HHS/OIG, Audit -"Review of Medicaid Long-Term Care Payments for Individuals with Both Medicare and Medicaid Coverage,"(A-06-03-00040)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Long-Term Care Payments for Individuals with Both Medicare and Medicaid Coverage," (A-06-03-00040)
March 31, 2004
Complete
Text of Report is available in PDF format (242 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Based on a statistical sample, we estimated that the Texas
Department of Human Services (Department) made incorrect Medicaid payments of at least $12,879 during the period January
1, 2001 through June 30, 2001 on behalf of dual eligible individuals which included payments for regular nursing and
Medicare co-insurance.  Medicaid overpayments occurred because nursing facilities failed to send the appropriate
Medicare skilled nursing facility (SNF) admission and discharge information to the Department.  We are recommending
that the Department refund $7,801, which is the Federal share of our estimate of at least $12,879 in overpayment; strengthen
controls concerning the accuracy of the SNF admission and discharge information; and work with the  Centers for
Medicare and Medicaid Services to prevent incorrect payments.